                    AUDIT OF AN EARLY DEFAULTED LOAN TO
                       ,....
                                 AUDIT REPORT NO. 0-05 


                                      February 14,2000 





The finding in this report is the conclusion of the OIG's Auditing Division based on testing of the
auditee's operations. The finding and recommendations are subject to review, management decision,
and corrective action in accordance with existing Agency procedures for follow-up and resolution.
This report may contain proprietary information subject to the provisions of 18 USC 1905 and must
not be released to the public or another agency without permission of the Office of Inspector
General.
                                                        AUDIT OF AN
                                          EARLY DEFAULTED LOAN TO
                 [                                 E><, If




                                                       Table of Contents


                                                                                                                       Page


BACKGROUND ................................................................................................................ 1

AUDIT SCOPE AND OBJECTIVE ................................................................................... 1

RESULTS OF AUDIT

Finding and Recommendations

          Financial Discrepancies were not Evaluated nor Reported to SBA ....................... 1 




Appendices

          A. Management Response
          B. Lender Comments
          C. Audit Report Distribution
                       U.S. SMALL BUSINESS ADMINISTRATION 

                           OFFICE OF INSPECTOR GENERAL 

                                Washington, DC 20416 





                                                                              AUDIT REPORT
                                                                          ISSUE DATE:
                                                                          FEBRUARY 14,2000
                                                                          REPORT NUMBER: 0-05


To:            Charles E. Anderson, District Director
                Georgia District Office


From:          ~.~~tant
                For Auditing
                                               Inspector General


Subject:       Audit of an Early Defaulted Loan toe
               r                            ~
                                                        I'PII'r .,. Ii"   .
                                                                          ...
               ... Fo,l/" e!.(. It         -'

        Attached is a copy of the subject audit report. The report contains one finding
and two recommendations addressed to your office. Your comments and the comments
of the lender have been synopsized and included in the report. Your comments indicate
that you agree with the audit results and that the amount to be recovered from the lender
should be increased. We have adjusted the report accordingly.

        The recommendations are subject to review and implementation of corrective
action by your office in accordance with existing Agency procedures for follow-up.
Please provide your management response to the recommendations within 30 days from
the date of this report using the attached SBA Forms 1824, Recommendation and
Action Sheet.

        Any questions or discussion ofthe issues contained in this report should be
directed to Garry Duncan at 202-205-7732.


Attachments
                                     -~----------------------------~




                                              BACKGROUND

            The Small Business Administration (SBA) is authorized under section 7(a) of the Small
    Business Act to provide financial assistance to small businesses in the form of government
    guaranteed loans. SBA guaranteed loans are made by participating lenders under an agreement
    (SBA Form 750) to originate, service, and liquidate loans in accordance with Administration
    rules and regulations.

            On June 7, 1996, 'Heller First Capital Corporation (lender) approved loan number
r     -<                                                      -,

~   r-C I!1E,f. to 'C  FOI ft e-•. 't   _               _     -1' (borrower). The loan was made to

    restructure long-term debt, pay accounts payable, make capital improvements, and provide
    working capital. The loan was disbursed in t E>(, '+ ::J defaulted in September, and was placed
    into liquidation in July 1997 with a principal balance of $965,000. t

           ~ F- lit £". f  3: was established to plan and stage business, social, and fund-raising 

    events. In 1992 it became the parent company off. Fo \ A 13.i. If :J which focused on riding 

    lessons, boarding horses, and hosting horse shows. 


                                  AUDIT SCOPE AND OBJECTIVE

           This report provides the conclusions of an audit of a SBA guaranteed loan. The loan was
    judgmentally selected for review as part of the Office oflnspector General's ongoing program
    to audit SBA loans charged off or transferred to liquidation within 36 months of origination
    (early default).

          The audit objective was to determine ifthe early loan default was caused by lender or
    borrower noncompliance with SBA's requirements. The SBA and lender loan files were
    reviewed and district office, lender personnel, and the borrower were interviewed. Since all
    borrower records had been destroyed, invoices maintained by the lender and subpoenaed bank
    records were analyzed. The audit was conducted between April through September 1999 in
    accordance with Government Auditing Standards.

                                          RESULTS OF AUDIT

            The reason for the loan default could not be determined because the borrower's records
    could not be reviewed because they had been destroyed. An analysis of the loan file, however,
    disclosed that the lender did not evaluate a discrepancy between an Internal Revenue Service
    (IRS) verification ofthe borrower's Federal taxes and financial statements used to support the
    loan approval. SBA inappropriately paid $485,051 (net) to honor the guarantee of a loan that
    should not have been made.

    Finding         Financial Discrepancies were not Evaluated nor Reported to SBA

            The loan was not originated in accordance with SBA rules and regulations or prudent
    lending practices. The lender did not evaluate nor notify SBA of a known discrepancy between
    the tax returns submitted by the borrower in support of his loan application and a verification
response from the IRS. The IRS verification showed that the tax returns submitted with the
application had not been filed.

Criteria for verifying financial data

        The loan agreement required the lender to ensure that the tax returns submitted with the
application conform to the information submitted to the IRS. This action must be taken prior to
disbursing the loan proceeds. Further, the lender was not in compliance with Policy Notice
9000-941 that requires SBA to be notified as soon as a material discrepancy between the
financial data submitted by the borrower and the IRS verification is identified. The notice also
states that a guarantee will not be given until the discrepancy is resolved.

Impact on the SBA guarantee

   Section 120.524, Title 13 of the Code of Federal Regulations (March I, 1996) states that
SBA is released from the payment of a loan guarantee if:

   • 	 the lender has failed to comply materially with any of the obligations of the regulations,
       the Loan Guaranty Agreement or the Authorization, or
   • 	 the lender fails to disclose a material fact regarding a guaranteed loan in a timely manner.

Recommendations

       We recommend that the Atlanta District Office take the following actions:

       IA.      Recover $485,051 from the lender for Loan Number:::- ,.., I+~.     r::
       lB.    Remind the lender of its obligation to comply with SBA regulations, policy, and
       procedures for originating loans, particularly in the area of:

             • 	 Informing SBA of material discrepancies between borrower financial data and
                 IRS information.

             • 	 Obtaining evidence that loan guarantee applicants' taxes are current.

District Office comments

        The District Director concurred that lack of investigation and reporting to SBA of the
deficiency were not prudent acts by the lender and that the subsequent disbursement was
improper. He also agreed with the recommendations. The District Director added that based
upon the most current information, the amount paid to Heller was $485,051, about $111,000
more than stated in the audit report, and that recovery would be at the higher amount (see
Appendix A).




                                                  2
Evaluation of District Office comments

      The District Director's comments are responsive to our recommendations. We have
changed the audit report to reflect the revised amount paid to Heller. I

Lender comments

        The lender responded that the loan was originated within all SBA rules and regulations
and that the audit report inaccurately concluded that'Heller's.failure to notify SBA of the
negative IRS verification caused the loss. Further, the OIG's conclusion that:!ie1Ier failed to
disclose a material fact with a resulting loss is overstated. The loan default was caused by
several factors including illness of the borrower, disappointing Olympic revenues, and poor
management. The lender agreed that the response from the IRS did not verify the borrower's
taxes, that they did not address nor fully understand the tax verification requirement, and that a
determination could not be made that the response was received prior to the funding date or
reviewed before loan closing. It was also pointed out that personnel involved in closing the loan
are not available for questioning and the IRS verification procedures and results were not always
perfect (see Appendix B).

Evaluation oflender's comments

        The lender's question as to whether the IRS verification was received prior to loan
closing is not relevant. At the time this loan was made, SBA policy precluded closing loans
prior to receiving the IRS response.

       The lender's response supports the following facts reported in the finding:

       • 	 the lender had not determined why the borrower's tax returns could not be verified,
           and
       • 	 the lender did not notify SBA of the IRS negative response.

We concluded, along with the District Office, that these were considered material non­
compliances with SBA's requirements and prudent lending practices. Such actions, therefore,
would have resulted in the loan not being disbursed.

       Although other factors may have impacted on the loan default, the fact remains that the
loan should not have been disbursed.




                                                3
                                                                                  Appendix A
                               ,

                           SMALL BUSINESS ADMINISTRATION 

                                  Georgia Distrid Office 

                              Peachtree Cente....Harris Tower 

                                   233 Peachtree st. NE 

                                    Atlanta, Ga. 30303 

February 7,2000

TO: Ro~ G. Seabrooks, Assistant Inspector Geuera1 for Auditing

FROM: Charles Anderson, Distrift Director Georgia District Offi

1m: Audit of ~ Early Defaulted Loan tor.      1 D 1./1   e..t.,. .                           ....,
We have 8DIIlyzed this applicatim!.submitted by{aener First Capital Corp. and have
detenniDed that the prime. docnnlents used in the ret'Ommenc1aticm, of approval by the
proc;ai&inC loan ot1Ieer andsubse{auent approval by the thief of the rmance division were
the 1992, 1993 and 1"" tax returns. 'lbese three doc:uments "Showed sufficient historical
cash Dow to repay the loaD beiog-appUed for.

It is unfortuaate to hear that the ~ender became aware that the applicant did not file the
three tax returns with IRS. We .clel'stand this infonnation was reeeivedin response to
the lender's filing of the IRS FOQa 4506 whidl is in compliance with paragraph 4(0 10 of
the Authorization on this loan. ApPareotIy, _this deficiency Was neither investigated nor
reported to SBA as required by pmdent lending practices. SUbsequently, the loan was
Improperly disbUrsed even with this deficiency known by tieller First Capital Corp:­

Our tile reveals thatthe  loan wa$ purdlased from Heller First Capital by a Treasury
check in the amount of$747,544~S2. This represented the Ai!ency's 75% interest in the
loan. Subsequently, the collateral was sold by Beller and produced a check to the
Treasury in the amount Or $262,~93.48. From this it is our position that Heller owes the
Treasury the difference in the ~ount of $485,051.04 and not the $373,759 cited in your
letter. We are fortunate to bave lbe fIDaI fagures in-this case to enable us to accurately
calculate the actual loss. Your r.gures were based on known facts at the time.

In summary, except for the amoUnt owed to the ageDCy, we agree with the two
recommendations set out In your draft of January 13, 2000.
    Heller Financial, Inc.
    900 Circle 75 Par1<way, Suite 900                                                Appendix B
    Atlanta, Georgia 30339
    Telephone: (170) 980-6016
    Facsimile: (110) 980-6215


H     Heller Financial
                                                                                J

    VIA FEDERAL EXPRESS
    AND U.S. MAIL

    January 26 , 2000

    Mr. Gary Duncan 

    Mr. Robert G. Seabrooks 

    Assistant Inspector General for Auditing 

    U.S. Small Business Administration 

    Office of Inspector General 

    Washington, DC 20416 


    Re:
           [.
             Audit of Early Defaulted Loan to
                  ;;~)/ It     e.. If .
                                                              ..,
                                                           -I


    Dear Mr. Seabrooks:

    We have received a copy of the Draft Audit Report on  r         rlJ/ " 

        1:}( .   1"         .::: and have several general comments set forth 

    below. 


  The intent of the audit, as we understood it, was to determine if the early loan 

  default was caused by lender or borrower non-compliance. As the audit 

  concludes, the reason for the loan default could not be determined (page 1, 

  paragraph 6, line 1). As we advised the auditor during his visit, although we 

  could not be sure, we understood the loan default was likely a result of several 

  factors, including but not limited to, the unexpected significant illness of the 

  borrower, disappointing Olympic revenues, including a unique "equine" sickness, 

  and ultimately, poor management by the borrower during a financial crisis. Ms. 

;: [,." ~set forth under oath in her bankruptcy pleading that "Following the closing 

  of;:t". 9 _ J loans with~~. 'I] there were unanticipated delays in obtaining the 

  licenses and permits needed to host many of the larger events for which the 

  Special Events Facility was designed. ~ Et. 't _:! s resulting inability to host 

  several events in turn resulted in .~ E•. , :1 inability to make all of its payments 

  to..  '" It ...
     ,. co.,  ."

    By way of short background, this was a GP loan with discounted collateral 

    coverage of 1.07:1, and debt coverage of 1.37. According to borrower's 

•   Mr. Gal}' Duncan
    Mr. Robert C. Seabrooks                                                               AppendixB
    01126100
    Page 2

                               ,
                               ..l

    bankruptcy files, (e~. q. Jhad been owned and operated as an equestrian
    facility for fifteen years. [ E.t. q :J, business was teaching riding lessons,
    boarding horses, hosting horse shows and other equine activities. The
    owner/manager, ~ 6~. 4-             .Jwas an aggressive young woman who was
                                                               r
    recognized for her contribution to the equine industry in t~. If J Our financing
    was primarily debt refinancing (to payoff notes which were ballooning within the
    year). Our loan reduced interest expense and had a realistic principal
    amortization. Our loan, we thought, was easily serviced by the borrower's
    existing cash flow. Unfortunately, this did not occur.

    The conclusion of the draft audit set forth that the failure to notify the SBA there
    was a negative IRS tax verification caused a loss. This in and of itself is not
    accurate. While there is no question that in 20-20 hindsight, this loan, even with
    good collateral, in a good location did not liquidate quickly or with the recovery
    we had hoped. [      e•.
                           't j, the borrower, made efforts to make this work (i.e.,
    brought in a general manager, introduced new programs and revenue
    enhancements, all of which did not materialize). C i:,. 'I J fought us in
    bankruptcy every step of the way, and the lift the area had hoped from the
    L. 	                  1=011\ ~. q                                        '] ; did not
    materialize.

    As you are aware, Heller did request, out of its Dallas office, verification of
    : : 1'0\1'1 E~. 't Jtax returns (this was requested prior to completion of the
     underwriting) and our files do reveal (although with no date) a fax from the IRS
    indicating that the IRS was unable to verify those returns. Whether this
    verification was received in Dallas prior to funding, or reviewed at all, we cannot
     say for sure. We can say, in hindsight, that had we seen this, we would have at
    least stopped and asked more questions. The people involved in closing this
    loan are not with us anymore so we do not know for sure, but we can say that
    during this period, in early 1996, the IRS verification procedures and results
     nationwide were not always perfect. It was not out of the question to have IRS
    verification take several months, come back with differing results as a result of a
     handwritten number error or not at all.

    Accordingly, the conclusion that we failed to disclose a material fact and a loss
    resulted is overstated. [£,,'1:: did not, we admit, address or fully understand the
    tax verification but this loan, a GP loan, was originated within all SBA rules and
    regulations.
     Mr. Gal}' Duncan
     Mr. Robelt C. Seabrooks                                                            AppendixB
     01/26100
     Page 3



H Heller Financial
     We are not privy to the full IG audit but we wonder what, if any, results were
     obtained from subpoena on the borrower, or her third party professionals
     (auditors, attorneys, etc.). Did the borrower commit a fraud in misrepresenting
     her financial history to lender or was the IRS verification an error, either through
     oversight, or a mistake (Le.; a misstated number, the 9 looks like a handwritten
     4, to me).

     We would welcome the opportunity to fully review the entire IG audit, workpaper 

     and files. Please let me know ifthat can be arranged. 



 r
     Cordially,                  ,

     Deputy General Counsel
                                                                                                  Appendix C


                                  AUDIT REPORT DISTRIBUTION


Recipient                                                                      Number of Copies

District Director
 Georgia District Office ------------------------------------------------------------------------ I

Deputy Associate Administrator for Capital Access ------------------------------------------- I

General Counsel---------------------------------------------------------------------------------- 2

Associate Administrator for
 Financial Assistance --------------------------------------------------------------------------- I

Associate Administrator for
 Field Operations -------------------------------------------------------------------------------- I

Office of Chief Financial Officer
 Attn: Jeff Brown -------------------------------------------------------------------------------- I

General Accounting Office --------------------------------------------------------------------- I
